          Office of Inspector General




                                  September 30, 2004

                                  RUDOLPH K. UMSCHEID
                                  VICE PRESIDENT, FACILITIES

                                  SUBJECT: Management Advisory –
                                           Lessor Maintenance Enforcement
                                           (Report Number CA-MA-04-006)

                                  This report presents the results of the survey phase of our
                                  self-initiated review of lessor maintenance enforcement
                                  (Project Number 03XG035CA000).

Results in Brief                  Postal Service management could improve its opportunities
                                  to reduce overall lease operating expenses. Specifically,
                                  personnel responsible for repair projects in the Dallas,
                                  Colorado/Wyoming, and Capital Districts did not always
                                  process rent reduction requests. Also, Facilities Service
                                  Office (FSO) personnel did not include the cost of
                                  investigations and studies for repair projects in the Dallas
                                  and Fort Worth Districts in future rent reductions. As a
                                  result, the Postal Service incurred expenses for repairs that
                                  it could have properly required the lessor to accomplish
                                  under the lease agreement, and therefore missed an
                                  opportunity to reduce overall lease operating expenses by
                                  approximately $26,507. These expenses represent funds
                                  that could be put to better use ($20,507) and unrecoverable
                                  costs ($6,000) and will be reported as such in our
                                  Semiannual Report to Congress.

                                  We recommended the Postal Service process missed rent
                                  reduction requests; develop and implement an interim policy
                                  to monitor and track projects eligible for rent reductions;
                                  enhance the Single Source Provider tracking system to
                                  include a process to monitor and track projects eligible for




  1735 N Lynn St.
  Arlington, VA 22209-2020
  (703) 248-2100
  Fax: (703) 248-2256
Lessor Maintenance Enforcement                                                        CA-MA-04-006



                                 rent reduction requests; and develop and implement a
                                 policy to include the cost of investigations and studies in
                                 future rent reductions.

                                 Management’s comments indicated partial agreement with
                                 recommendation 1, fully agreed with recommendations 2
                                 and 3, and disagreed with recommendation 4. Since
                                 management’s comments are based on information
                                 obtained subsequent to our fieldwork and we take no
                                 exception to the information presented, management’s
                                 comments are responsive to our recommendations.
                                 Management has taken or planned corrective actions that
                                 are responsive to our recommendations. Management’s
                                 comments, in their entirety, are included in Appendix C of
                                 this report.

Background                       As of May 2004, the Postal Service’s active leased facility
                                 inventory contains over 28,000 leased facilities comprised of
                                 approximately 99 million interior square feet. Annual rent
                                 for these leased facilities is over $830 million.

                                 Maintenance responsibility, included in the lease agreement
                                 as Maintenance Rider – Lessor Responsibility, must be
                                 correctly determined to:

                                     •   Avoid damaging relationships between the Postal
                                         Service and the lessor.

                                     •   Preclude legal complications and lawsuits from
                                         breach of contract, caused by misinterpreting
                                         maintenance responsibility provisions.

                                     •   Avoid incurring expenses to correct maintenance
                                         problems that are the lessor’s responsibility.1

                                 Postal Service lease agreements do not require the lessor
                                 to perform preventive maintenance work.2 Additionally,
                                 lessors responsible for maintaining Postal Service facilities
                                 under the terms of the lease agreement are not required to
                                 make improvements the Postal Service might desire.3




1
  Realty Acquisition Handbook, RE-1, Section 741.1.
2
  Realty Acquisition Handbook, RE-1, Section 741.31.
3
  Realty Acquisition Handbook, RE-1, Section 741.31.

                                                       2
Lessor Maintenance Enforcement                                                                          CA-MA-04-006




                                   From January 1998, through September 2003, the Postal
                                   Service committed about $70 million for 2,995 maintenance
                                   and repair projects in the Southwest Area.

                                   The contracting officer of the facilities organization decides
                                   if repair costs incurred by the Postal Service should be
                                   absorbed by the postmaster/installation head or deducted
                                   from future rents due the lessor.4

Objectives, Scope,                 Our survey objective was to determine if the Postal Service
and Methodology                    had adequate controls to enforce lessor maintenance
                                   responsibilities.

                                   We initially reviewed 100 maintenance repair projects with
                                   committed funds totaling over $3.5 million in the Dallas and
                                   Fort Worth Districts from fiscal years 1998 through 2003.5
                                   We expanded our review to include 50 additional roofing
                                   and heating, ventilation, and air conditioning (HVAC)
                                   maintenance repair projects from the Colorado/Wyoming,
                                   Chicago, and Capital Districts.6

                                   We extracted 150 maintenance repair projects from the
                                   Facilities Management System for Windows (FMSWIN).
                                   We then reviewed lease agreements to determine
                                   maintenance responsibility, and identified 117 complete
                                   repair projects where maintenance was the responsibility of
                                   the lessor. We interviewed applicable postmasters and
                                   district Administrative Service Office (ASO) and FSO
                                   personnel regarding procedures for enforcing lessor
                                   maintenance responsibility. We also reviewed current
                                   Postal Service policies and procedures, and obtained and
                                   reviewed documentation to support future rent reductions.

                                   This review was conducted from November 2003 through
                                   September 2004 in accordance with the President’s Council
                                   on Integrity and Efficiency, Quality Standards for
                                   Inspections. We discussed our observations and
                                   conclusions with appropriate management officials and
                                   included their comments, where appropriate.

4
  Realty Acquisition Handbook, RE-1, Section 742.312.
5
  8 roofing projects with committed funds totaling $1.1 million; 32 heating, ventilation, and air conditioning (HVAC)
projects with committed funds totaling $594,000; 60 “other” repair projects with committed funds totaling $1.8 million.
6
  25 projects from the Colorado/Wyoming District with committed funds totaling $721,000; 5 projects from the
Chicago District with committed funds totaling $118,000; 20 projects from the Capital District with committed funds
totaling $201,000.
7
  8 in Dallas/Fort Worth Districts, 1 in Chicago District, 1 in Capital District and 1 in Colorado/Wyoming District.

                                                           3
Lessor Maintenance Enforcement                                                    CA-MA-04-006



                            We relied on computer-generated data from FMSWIN to
                            extract maintenance repair projects for leased facilities in
                            the Dallas, Fort Worth, Colorado/Wyoming, Chicago, and
                            Capital Districts. We believe the computer-generated data
                            was sufficiently reliable for that purpose. However, we did
                            not rely on any computer-generated data to support the
                            opinions or conclusions in this report.

Prior Audit Coverage        The Office of Inspector General issued a management
                            advisory report, Management of Facility Lease Program
                            (Report Number CA-MA-03-009, dated September 30,
                            2003). This report concluded that FSO personnel did not
                            always identify and document the condition of facilities prior
                            to lease renewal. It also provided information on the Postal
                            Service’s Single Source Provider Program. Management
                            agreed with our recommendations to implement procedures
                            to use the newly created facility condition checklist to identify
                            and document the condition of facilities prior to lease
                            renewal, communicate this information to responsible
                            facilities service office personnel, enforce the requirement to
                            identify and send the lessor a letter of outstanding
                            maintenance items when the lessor is responsible for
                            maintenance, and establish and implement procedures to
                            document outstanding maintenance items prior to assuming
                            maintenance responsibility from the lessor. To address
                            these issues, management issued a policy memorandum on
                            September 30, 2003, that included an update to the
                            Maintenance Rider - USPS Responsibility. Additionally,
                            Postal Service included the updated maintenance rider in
                            the new lease template. Upon conclusion of testing in the
                            Great Lakes FSO, the updated lease template will be
                            released to the remaining FSOs.

Opportunity Exists to       Postal Service management could improve its opportunities
Reduce Overall Lease        to reduce overall lease operating expenses by enhancing
Operating Expenses          controls to enforce lessor maintenance responsibilities.
                            Specifically, personnel responsible for repair projects in the
                            Dallas, Colorado/Wyoming, and Capital Districts did not
                            always process rent reduction requests. Also, FSO
                            personnel did not include the cost of investigations and
                            studies in future rent reductions.

                            The Postal Service reduced future rent by the cost of
                            maintenance repairs that were the lessor’s responsibility for
                            projects in the Fort Worth and Chicago Districts totaling
                            $42,185. However, the Postal Service paid for repairs on

                                               4
Lessor Maintenance Enforcement                                                                      CA-MA-04-006



                                 three projects totaling $26,5078 that were the lessor’s
                                 responsibility but did not reduce future rent.

                                          Projects with No Future Rent Reduction
                                   Project Facility                    Repair    Dollar
                                   Number Name           District       Type    Amount
                                                 Custom                               Replace
                                    C23252       House              Capital            HVAC           $11,739
                                                                                       Repair
                                    G32084      Copeville           Dallas           Parking Lot         6,000
                                                 Fowler                               Replace
                                    E91797       Station     Colorado/Wyoming           Roof             8,768
                                                Total                                                 $26,507

                                 In these projects, we did not find any documentation to show
                                 that ASO personnel took any action to initiate the rent
                                 reduction.

                                 This occurred because procedures do not exist to monitor
                                 and track projects that qualify for rent reductions.

                                 Regarding investigations and studies, we identified
                                 four projects totaling $11,678 that were initiated to determine
                                 maintenance responsibility but were not included in future
                                 rent reductions.

                                          Projects With No Future Rent Reduction
                                   Project     Facility             Project     Dollar
                                   Number       Name      District    Type     Amount
                                                                                     HVAC
                                                                                   Equipment
                                    G61128          Greenville        Dallas         Study             $2,680
                                                                                   Roof/HVAC
                                    G65272          Mesquite          Dallas      Investigation         4,148
                                                                       Fort          HVAC
                                    G50270         Jacksboro          Worth       Investigation           824

                                    G69645          Greenville        Dallas      HVAC Study            4,026
                                                Total                                                 $11,678

                                 The results of these investigations and studies showed that
                                 the lessor had responsibility for the repair. However, the
                                 costs to conduct them were absorbed as an expense to the

8
 We initially identified five projects totaling $113,260; however, subsequent to our fieldwork Postal Service
management provided additional documentation to show resolution of the issues for the Station A and Airlawn Station
projects. Furthermore, the total cost for the Copeville, Texas, project was $22,015; however, Postal Service
management estimated the repair portion at $6,000.

                                                        5
Lessor Maintenance Enforcement                                                                     CA-MA-04-006




                                 Postal Service because a policy does not exist to include
                                 these costs in future rent reductions. 9

                                 As a result, the Postal Service incurred expenses for repairs
                                 that it could have properly required the lessor to complete
                                 under the lease agreement. Also, the Postal Service missed
                                 an opportunity to reduce overall lease operating expenses
                                 by $26,507. (See Appendix B).

                                 As stated in our prior audit report, Management of Facility
                                 Lease Program (Report Number CA-MA-03- 009), dated
                                 September 30, 2003, Postal Service management recently
                                 initiated the Single Source Provider Program. This program
                                 will consolidate repair and maintenance functions previously
                                 performed by district ASO personnel into a single function
                                 within the FSOs. It has been fully implemented in one FSO
                                 and is scheduled for implementation at all offices over the
                                 next several years. As part of this program, the Postal
                                 Service developed a Web-based project tracking system.
                                 Also, district ASO personnel will no longer be responsible for
                                 initiating maintenance repair projects, and responsibility for
                                 lessor maintenance enforcement shifts from the
                                 postmaster/installation head to FSO personnel. Instead, all
                                 required documents will be generated by the FSO, and
                                 processed through the district and area offices. These
                                 initiatives are designed to enhance communication
                                 regarding maintenance repair issues and should reduce the
                                 risk that future rent reduction requests are not processed.

                                 During a meeting on January 21, 2004, management agreed
                                 to modify existing procedures to include monitoring and
                                 tracking rent reduction requests as an interim procedure,
                                 prior to implementation of the Single Source Provider
                                 Program. That action, in addition to enhancing the Single
                                 Source Provider Web-based tracking system, should reduce
                                 overall lease operating expenses Postal Service-wide.
                                 Therefore, we do not plan to conduct audit work beyond the
                                 survey phase at this time.




9
  Subsequent to our fieldwork, Postal Service management obtained advice from legal counsel that indicates these
studies are not chargeable to the lessor at the time they are obtained; however, they may be recoverable if the
project is litigated.

                                                        6
Lessor Maintenance Enforcement                                                    CA-MA-04-006




Recommendation              We recommend the Vice President, Facilities:

                                 1. Direct the Facilities Service Office managers to
                                    process rent reductions for the five projects identified
                                    during our review.

Management’s                Management indicated partial agreement with
Comments                    recommendation 1. They agreed to coordinate with legal
                            counsel to determine if a rent reduction is appropriate for the
                            Custom House and Fowler, Colorado, projects totaling
                            $20,507. Also, since the Copeville, Texas, project included
                            improvement of the parking lot, Postal Service management
                            stated that the FSO is negotiating with the lessor to recover
                            the portion attributed to repair. However, the Postal Service
                            had responsibility for the repair of the HVAC at Dallas
                            Station A. Therefore, those funds cannot be recovered.
                            Also, rent recovery for the Airlawn Station project was
                            resolved as part of a larger civil settlement with the lessor.
                            Finally, the cause for no rent reduction for the Custom
                            House project was erroneously stated.

Evaluation of               Management’s comments are responsive to our
Management’s                recommendation. Management’s actions taken or planned
Comments                    should correct the issues identified in the finding.

                            Since information provided in management’s response was
                            not available during the time of our fieldwork and was not
                            provided during our meeting on January 21, 2004, we met
                            again on August 31, 2004, to discuss updates.

                            We accept management’s justification not to request a rental
                            reduction for the Dallas Station A and the Airlawn facilities
                            and have removed these costs from total funds put to better
                            use.

                            We agree that the cause for no rent reduction for the
                            Custom House project was erroneously stated and have
                            revised our report accordingly. Also, on the Copeville,
                            Texas, project, we removed the total project cost from funds
                            put to better use. Instead, we classified $6,000 as
                            unrecoverable cost because the ASO did not follow proper




                                                7
Lessor Maintenance Enforcement                                                                 CA-MA-04-006



                                procedures to enforce lessor maintenance. Therefore, there
                                is not an opportunity to recover that cost.10

Recommendations                 We recommend the Vice President, Facilities:

                                    2. Develop and implement an interim policy to monitor
                                       and track projects eligible for rent reductions effective
                                       until full implementation of the Single Source Provider
                                       Program in all Facilities Service Offices.

                                    3. Enhance the Single Source Provider Web-based
                                       tracking system to include a process to monitor and
                                       track projects eligible for rent reduction requests.

Management’s                    Management agreed with recommendations 2 and 3 and
Comments                        issued a directive to the FSOs dated September 1, 2004, to
                                use FMSWIN to track maintenance projects that are the
                                lessor’s responsibility under the lease. The FSOs will be
                                required to share this directive to ASOs in areas where the
                                Facilities Single Source Provider Program has not been fully
                                implemented. Furthermore, at the end of each month,
                                headquarters Facilities will generate a report of all projects
                                where the lessor has maintenance responsibility and furnish
                                the report to the FSO manager to follow up on the rental
                                reduction action. Additionally, the Facilities Single Source
                                Provider Program Response Line provides a field to track
                                rent reduction and the directive will remind users to
                                complete this information.

Evaluation of                   Management’s comments are responsive to
Management’s                    recommendations 2 and 3 and actions taken or planned
Comment’s                       should correct the issues identified in the finding.

Recommendation                      4. Develop and implement a policy to include in future
                                       rent reductions the cost of investigations and studies
                                       that conclude that maintenance responsibility belongs
                                       to the lessor.

Management’s                    Management disagreed with our recommendation.
Comments                        Management stated the cost of investigations and studies is
                                considered a cost of doing business and these reports prove
                                invaluable when lessor deferred maintenance becomes the
                                subject of a dispute between the lessor and the Postal

10
 Correspondence received from Postal Service management subsequent to our fieldwork and receipt of
management’s comments.

                                                      8
Lessor Maintenance Enforcement                                                  CA-MA-04-006



                            Service. Advice from legal counsel indicated the cost of
                            studies may be recoverable if the project is litigated.
                            However, they could not be chargeable to the lessor at the
                            time they are obtained.

Evaluation of               The purpose of recommendation 4 was to encourage
Management’s                Facilities officials to include the cost of investigations and
Comments                    studies in future rent reductions in order to reduce overall
                            lease operating expenses. In a meeting on January 21,
                            2004, management expressed interest in implementing this
                            suggestion. However, subsequent to our fieldwork,
                            management obtained advice from legal counsel that the
                            studies are not chargeable to the lessor at the time they are
                            obtained. We accept management’s justification not to
                            include the cost of all investigations and studies in rent
                            reductions when they are obtained. Therefore, although we
                            feel that monitoring these costs would decrease overall
                            costs, we will not pursue this issue further, and the dollars
                            will not be reported as unrecoverable costs.

                            We appreciate the cooperation and courtesies provided by
                            your staff during the review. If you have any questions, or
                            need additional information, please contact Lorie Siewert,
                            Director, Supply Management and Facilities, or me at
                            (703) 248-2300.

                            /s/ Colleen A. McAntee

                            Colleen A. McAntee
                            Deputy Assistant Inspector General
                             for Financial Management

                            Attachment

                            cc: Patrick R. Donahoe
                                George L. Lopez
                                Sylvester Black
                                Jerry D. Lane
                                George W. Overby
                                Keith E. Lashier
                                Carl T. January
                                Steven R. Phelps




                                              9
Lessor Maintenance Enforcement                                            CA-MA-04-006



                          APPENDIX A. ABBREVIATIONS

ASO                          Administrative Service Office
FMSWIN                       Facilities Management System for Windows
FSO                          Facilities Service Office
HVAC                         Heating, ventilation, and air conditioning




                                            10
Lessor Maintenance Enforcement                                                CA-MA-04-006




                                    APPENDIX B

              PROJECTS WITH NO FUTURE RENT REDUCTION

Funds Put to Better Use:

        Repairs Paid for by Postal Service That
        Were the Responsibility of Lessor:             $ 20,507


Unrecoverable Cost:

        Repairs Paid for by Postal Service When
        Proper Lessor Enforcement Procedures
        Were Not Followed                              $ 6,000

Total                                                  $ 26,507


NOTES

Repairs paid for by Postal Service that were the responsibility of the lessor represents
the cost of repairs made by the Postal Service for the Custom House and Fowler
Station projects identified in our review.

Repairs paid for by Postal Service when proper lessor enforcement procedures were
not followed represents a portion of the total cost of repairs/improvements on the
Copeville, Texas, project.

FUNDS PUT TO BETTER USE - Funds that could be used more efficiently by
implementing recommended actions.

UNRECOVERABLE COST - Costs that should not have been incurred and are not
recoverable.




                                            11
Lessor Maintenance Enforcement                       CA-MA-04-006



                 APPENDIX C. MANAGEMENT’S COMMENTS




                                 12
Lessor Maintenance Enforcement        CA-MA-04-006




                                 13
Lessor Maintenance Enforcement        CA-MA-04-006




                                 14
Lessor Maintenance Enforcement        CA-MA-04-006




                                 15
